JULY 8, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




  NASA’S EFFORTS TO MAXIMIZE RESEARCH ON THE
         INTERNATIONAL SPACE STATION




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-13-019 (ASSIGNMENT NO. A-12-008-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

CASIS             Center for the Advancement of Science in Space, Inc.
EVA               Extravehicular Activity
EXPRESS           Expedite the Processing of Experiments to the Space Station
FY                Fiscal Year
ISS               International Space Station
kg                kilogram
OIG               Office of Inspector General



                                                                     REPORT NO. IG-13-019
JULY 8, 2013




                                                                                              OVERVIEW

             NASA’S EFFORTS TO MAXIMIZE RESEARCH ON THE
                    INTERNATIONAL SPACE STATION
                                                                                                 The Issue

  Given the high costs (approximately $60 billion spent by NASA alone) and extraordinary
  efforts expended to build the International Space Station (ISS or Station), national leaders
  have emphasized the importance of maximizing its scientific research capabilities.1 The
  NASA Authorization Act of 2005 designated the U.S. segment of the ISS as a national
  laboratory (National
  Lab), and directed NASA                 Figure 1. The International Space Station
  to increase utilization of
  the National Lab by other
  federal entities and to
  foster commercial interest
  in conducting research on
  the ISS. Subsequently,
  the NASA Authorization
  Act of 2010 (Public
  Law 111-267) required
  NASA to enter into a
  cooperative agreement
  with a nonprofit
  organization to manage at
  least 50 percent of the
  Agency’s available
  research resources on the     Source: NASA.
  ISS.

  In August 2011, NASA signed a cooperative agreement with the Center for the
  Advancement of Science in Space, Inc. (CASIS) to manage non-NASA research on the
  ISS. Pursuant to the agreement, NASA will provide CASIS $15 million annually. To




  1
      Despite the fact that the Space Shuttle was used for ISS assembly missions, NASA considers the Space
      Shuttle Program an independent program from the ISS. For this reason, NASA does not include the cost
      of the Space Shuttle assembly flights in their calculation of ISS costs. If included, the overall cost would
      increase from $60 billion to $100 billion.



REPORT NO. IG-13-019
                                                                                                         OVERVIEW



     supplement these funds, CASIS is expected to raise additional funding through
     membership fees and donations and to work to encourage others to conduct self-funded
     research on the Station.2

     In addition to CASIS’s efforts, maximizing the ISS’s research capabilities also depends
     upon the success of NASA’s Commercial Cargo and Crew Programs. The Cargo
     Program is essential to ensuring the capacity to ferry experiments to and from the Station
     and the commercial crew vehicles currently under development will make it possible to
     staff the ISS with a full complement of seven crew members (rather than the current six),
     thereby increasing the amount of crew time available for research.

     The NASA Office of Inspector General examined: (1) the current level of Station
     research, (2) CASIS’s efforts to facilitate non-NASA research aboard the ISS, and
     (3) transportation challenges that could hinder full research utilization of the ISS. Details
     of the audit’s scope and methodology are in Appendix A.


     Results

     NASA has made progress towards maximizing the research capabilities of the ISS, but
     opportunities exist for greater utilization to more fully realize the Station’s research
     potential and maximize the value of the United States’ investment in building and
     maintaining the structure.

     NASA uses three significant data points to assess utilization of ISS research capabilities:

              Average weekly crew time – Since 2011, NASA has exceeded its goal of spending
               an average of 35 hours per week on scientific investigations.

              Number of investigations – For the fiscal year (FY) ending October 2008, NASA
               performed 62 investigations. Since then, the annual number of investigations has
               been above 100.

              Use of allocated space – NASA expects that the utilization rate for space
               allocated for research purposes will increase in FY 2013 from about 70 percent to
               75 percent for internal space and from 27 percent to 40 percent for external sites.

     While no one measure provides a complete picture of the utilization rate, NASA has
     generally increased the level of activity for each metric since completion of ISS assembly
     in 2011. Further progress in maximizing the Station’s research capabilities depends on


     2
         In fiscal year 2012, CASIS met its requirement to enroll 50 paid members, and raised a total of $3,200 in
         membership fees.




ii                                                                                         REPORT NO. IG-13-019
OVERVIEW



  (1) CASIS’s ability to attract private funding to support research and to encourage
  companies and other organizations to conduct self-funded research and (2) the success of
  NASA’s Commercial Cargo and Crew Programs.

  Private Funding. Attracting private funding, matching investors with researchers, and
  fostering a market to conduct non-NASA research are significant challenges to NASA’s
  efforts of maximizing the Station’s research potential. First, NASA historically has
  received little interest from private entities for ISS research unless there was a substantial
  infusion of government funds.3 Second, less costly ground-based research options may
  be available in some cases. Finally, potential users may be reluctant to allocate funds
  towards research when the likelihood of profitable results is risky.

  Moreover, CASIS suffered a series of organizational issues early on that may have
  affected its initial fundraising efforts. In addition, although the organization met most of
  its early performance metrics, these metrics were focused primarily on achieving
  organizational milestones rather than measuring how successful CASIS has been in
  encouraging research on the ISS. Until NASA and CASIS establish precise metrics that
  reflect the degree to which CASIS is increasing non-NASA research on the ISS, it will be
  difficult to determine if CASIS is meeting the objectives of its agreement with NASA.

  Transportation. The continued availability of dependable transportation for cargo and
  crew to the ISS is a key factor in maximizing the research capabilities of the Station.
  Four cargo vehicles currently support the ISS – Space Exploration Technologies
  Corporation’s (SpaceX) Dragon, the Russian Progress, the European Automated Transfer
  Vehicle, and the Japanese H-II Transfer Vehicle. A fifth vehicle, Orbital Sciences
  Corporation’s (Orbital) Cygnus, is expected to begin cargo flights in late 2013. All but
  the Progress carry NASA payloads to the Station, but only the Dragon can return
  experiments and other cargo to Earth. The other vehicles burn up during atmospheric
  reentry and therefore are suitable only for trash disposal. The Dragon’s return capability
  is critical to maximizing the Station’s research capabilities, as many experiments require
  samples to be brought back to Earth for analysis and examination.

  After NASA retired the Space Shuttle in 2011, the Russian Soyuz became the only
  vehicle capable of transporting crew to the ISS. Between 2006 and 2008, NASA
  purchased one seat per year. Beginning in 2009, NASA started purchasing six seats per
  year. The price per seat has increased over the years from $22 million in 2006, to
  $25 million in 2010, to $28 million in the first half of 2011. During the second half of
  2011, the price per seat jumped to $43 million.4 The price has continued to increase. For

  3
      “Commercial Market Assessment for Crew and Cargo Systems Pursuant to Section 403 of the NASA
      Authorization Act of 2010,” (NASA, April 27, 2011).
  4
      The largest increase occurred for launches planned for the latter portion of 2011, when retirement of the
      Space Shuttle and the lack of a U.S. domestic transportation capability increased NASA’s previous
      demand for Soyuz seats. According to the Space Station External Integration Office, meeting this
      increased demand required upgrades to and modernization of Russia’s manufacturing infrastructure,
      which resulted in a 57 percent increase in the cost per seat – from $28 million for launches in the first
      half of 2011 to $43 million for launches in the latter half of 2011.



REPORT NO. IG-13-019                                                                                              iii
                                                                                                      OVERVIEW



     example, the price of purchased seats for launches in 2014 and 2015 are $55.6 million
     and $60 million, respectively. In April 2013, NASA signed another deal with Russia
     valued at $424 million for six additional seats to carry NASA astronauts to the Station
     during 2016 through June 2017, and the price per seat has increased to $71 million.

     NASA began the Commercial Crew Program in 2010 in part to end its reliance on the
     Soyuz for crew transportation to the ISS. The goal of the Commercial Crew Program is
     to facilitate the design and development of safe, reliable, and cost effective crew
     transportation to the ISS and low Earth orbit. In August 2012, NASA awarded the third
     round of development agreements for approximately $1.1 billion to three commercial
     partners.5 NASA expects at least one commercial partner to provide crew transportation
     services to the ISS in 2017. However, NASA has not received the full amount of funds it
     requested for its Commercial Crew Program since 2011, and the Program continues to
     face an uncertain funding stream. For example, NASA requested $850 million for
     FY 2012 and $830 million for FY 2013 for the Program, but received only $406 million
     and $489 million, respectively. If this trend continues in the future, NASA likely will not
     meet its goal of having at least one vehicle transporting crew to the ISS in 2017. In that
     case, NASA would have to continue to purchase additional seats on Soyuz vehicles.

     Reliance on the Soyuz limits the amount of research conducted on the ISS because the
     Soyuz does not have the capacity to support the maximum number of crew members that
     can inhabit the Station. NASA and its partners designed the ISS to support seven crew
     members. However, the Soyuz has a three-person capacity; therefore, only six crew
     members can safely be aboard the ISS at any time to allow for evacuation in case of an
     emergency (given that two Soyuz capsules are docked to the ISS at all times to serve as
     “escape vehicles.”) According to the ISS Program Office, a seventh crew member could
     potentially add about 33 hours per week to the current amount of crew time devoted to
     research – a 94 percent increase.

     Given its $60 billion construction price tag and almost $3 billion in annual operating
     costs, it is essential that NASA make a concerted effort to maximize the research
     capabilities of the ISS. The success of this effort largely hinges on two factors: the
     ability of CASIS to attract sufficient interest and funding from private users and investors
     and the availability of reliable transportation to and from the ISS for crew and cargo.




     5
         SpaceX received $440 million for its Dragon capsule; the Boeing Corporation received $460 million for
         its CST-100 capsule; and Sierra Nevada Corporation received $212.5 million for its Dream Chaser
         capsule.



iv                                                                                      REPORT NO. IG-13-019
OVERVIEW



                                                              Management Action

  In order to better assess the performance of CASIS, we recommended that the NASA
  Associate Administrator for the Human Exploration and Operations Mission Directorate
  work with CASIS to develop precise annual performance metrics that measure CASIS’s
  success at fostering private research on the ISS. In response to our draft report, the
  Associate Administrator agreed to develop such metrics. We consider the Associate
  Administrator’s proposed action to be responsive and will close the recommendation
  once we verify the Agency has developed metrics.

  In his response, the Associate Administrator also noted that CASIS is just one avenue to
  maximize ISS utilization, citing other ways in which NASA has expanded NASA-related
  research on the Station. Although we acknowledge these efforts, our report focused on
  increasing utilization of the National Lab by entities other than NASA, and CASIS is the
  primary mechanism through which NASA will pursue this goal. Accordingly, we
  continue to believe that CASIS’s success is critical to maximizing the research
  capabilities of the ISS.




REPORT NO. IG-13-019                                                                         v
JULY 8, 2013




                                                              CONTENTS

  INTRODUCTION
      Background __________________________________________ 1
      Objectives __________________________________________ 13

  RESULTS
      Maximization of ISS Research Opportunities is Dependent on
      Attracting Private Funding and Ensuring Reliable Cargo and
      Crew Transportation __________________________________ 14
               NASA has Increased Research on the ISS but
                  Opportunities Exist for Greater Utilization ________ 14
               CASIS’s Early Performance Metrics Primarily Measured
                  Organizational Goals Rather than Station Research
                  Utilization _________________________________ 16
                Maximizing Use of the ISS for Research is Dependent
                  on Evolving Transportation Capabilities _________ 21

  APPENDIX A
      Scope and Methodology _______________________________ 27
      Review of Internal Controls _____________________________ 28
      Prior Coverage _______________________________________ 29

  APPENDIX B
      Management Comments _______________________________ 30

  APPENDIX C
      Report Distribution ___________________________________ 33




REPORT NO. IG-13-019
JULY 8, 2013




                                                                                    INTRODUCTION


Background

  The Soviet Union launched the world’s first space station, Salyut 1, in 1971.6 NASA
  followed with Skylab in 1973. Both the Salyut and Skylab were designed to house
  crews for relatively short visits and were not capable of supporting continuous human
  occupation. In 1986, the Soviets launched the first component of their modular Mir space
  station. Mir was permanently occupied from 1989 through1999. In addition to Soviet
  cosmonauts, seven NASA astronauts visited Mir and NASA Space Shuttle Orbiters
  docked with the Soviet station nine times.

  In the mid 1980s, the United States began negotiating with the Canadian, Japanese, and
  the European space agencies to build and operate a space station in low Earth orbit.
  Russia joined the partnership in 1993, and in 1998, assembly of the International Space
  Station (ISS or Station) began.

  The U.S., European, Japanese, and Russian space agencies each constructed various ISS
  modules. The first module, Russia’s Zarya, launched on a Russian Proton rocket in
  November 1998, and provided electrical power, storage, propulsion, and guidance for the
  Station. The following month, a Space Shuttle delivered the U.S. module, Unity, which
  connected fluids, environmental control and life support systems, and electrical and data
  systems to the Station and provided six docking locations for future modules. In July
  2000, Russia placed the Zvezda Service Module into orbit, providing the main living
  quarters for the crew as well as environmental systems, electronic controls, and additional
  docking locations. In November 2000, two Russian cosmonauts and one American
  astronaut became the first crew members to live and work on the ISS. Almost nine years
  later in May 2009, with the addition of the fourth and final power-generating section, the
  ISS became capable of supporting six crew members at a time. In July 2011, assembly of
  the ISS was considered complete with the installation of the final express logistics carrier
  and the Alpha Magnetic Spectrometer.7 Each agency’s contribution to the ISS is shown
  in Figure 2.




  6
      The Soviets launched a series of Salyut stations, ending with Salyut 7 in April 1982.
  7
      Alpha Magnetic Spectrometer provides data to advance human knowledge about the space radiation
      environment and fundamental issues about the origin and structure of the universe.



REPORT NO. IG-13-019                                                                                   1
                                                                                                 INTRODUCTION



                              Figure 2. ISS Partnership of Five Space Agencies




    Source: NASA.

    Historical Perspective of ISS Costs, Schedule, and Performance. The final
    configuration of the ISS cost more, took longer to complete, and is less capable than
    planners envisioned. In 1984, NASA estimated the Station would be fully assembled by
    1994 at a cost of $8 billion to the Agency. In the end, construction of the ISS was
    completed in 2011, at an estimated cost of $60 billion to NASA, plus another $40 billion
    for associated Space Shuttle flights. Similarly, initial plans for the ISS were for a Station
    that, in addition to serving as a laboratory for scientific research, would have had seven
    other distinct functions, including serving as a permanent observatory, a manufacturing
    facility, and a staging base for launching missions further into space.8 In addition, the
    length of the ISS decreased from 493 to 357 feet (a 27.6 percent reduction compared to
    early plans) and the Station can support seven rather than eight crew members.9 The cost
    growth, schedule delays, and functional changes resulted primarily from underestimating


    8
        The other planned functions were a transportation node to process and propel vehicles and payloads to
        further destinations, a servicing facility, an assembly facility, and a storage depot.
    9
        Although the Station can support seven crew members, at present only six can be on Station at one time
        in order to ensure evacuation in case of an emergency. The only vehicle currently carrying crew to and
        from the station is the Russian Soyuz, which has a three-person capacity and only two Soyuz capsules
        can be attached to the Station at one time.



2                                                                                       REPORT NO. IG-13-019
INTRODUCTION



  the technical complexity of building the Station; changes in Federal government funding
  priorities; and the Challenger and Columbia Space Shuttle accidents which delayed and
  reduced the number of Shuttle flights devoted to ISS assembly.

  Efforts to Maximize Scientific Research on the ISS and Creation of the National
  Laboratory. Given the high costs and extraordinary effort expended to build the ISS,
  national leaders have emphasized the importance of maximizing its scientific research
  capabilities. The NASA Authorization Act of 2005 (Public Law 109-155) designates the
  U.S. segment of the ISS as a national laboratory (National Lab) and directs NASA to
  work to increase utilization of the ISS research capabilities by other Federal entities and
  the private sector.10 Similarly, the NASA Authorization Act of 2010 (Public
  Law 111-267) directs NASA to take all actions necessary to ensure the safe and effective
  operation, maintenance, and maximum utilization of the ISS through at least September
  2020. In addition, the legislation requires NASA to enter into a cooperative agreement
  with a nonprofit organization to manage at least 50 percent of the Agency’s available
  research resources on the ISS. Specifically, the Act requires the nonprofit to: (1) plan
  and coordinate ISS national laboratory research activities; (2) develop and implement
  guidelines, selection criteria, and flight support requirements for non-NASA research;
  (3) interact with and review recommendations of the ISS National Laboratory Advisory
  Committee; (4) coordinate transportation requirements in support of ISS national
  laboratory research and development objectives; (5) cooperate with NASA and other ISS
  users to ensure the enhancement and sustained operations of nonexploration-related
  research payload ground support facilities; (6) develop and implement scientific outreach
  and education activities; and (7) address matters relating to utilization of the ISS national
  laboratory research and development facilities that the Administrator considers
  appropriate.11

  Center for the Advancement of Science in Space, Inc. In February 2011, NASA
  released a request for proposal seeking a nonprofit entity to fulfill the requirements of the
  2010 Authorization Act. Four groups responded and NASA chose the Center for the
  Advancement of Science in Space, Inc. (CASIS). CASIS is a creation of Space
  Florida - a special district created by the State of Florida to foster the development of the
  space industry in the State.

  In August 2011, NASA finalized a cooperative agreement with CASIS to manage
  non-NASA research on the ISS. An Executive Director who reports to a 15-member



  10
       The NASA Authorization Act of 2005 defines the “United States segment of the ISS” to mean those
       elements of the ISS manufactured by the United States or for the United States by other nations in
       exchange for funds or launch services.
  11
       The NASA Authorization Act of 2008 (Public Law 110-422) required that the NASA Administrator
       establish the ISS National Laboratory Advisory Committee. This committee was tasked to monitor,
       assess, and make recommendations regarding effective utilization of the Station as a national laboratory
       and platform for research. NASA chartered this committee in 2009, but no members were ever seated.
       However, the functions of this committee are being performed by the Subcommittee for Operations
       under the NASA Advisory Committee.


REPORT NO. IG-13-019                                                                                              3
                                                                                                   INTRODUCTION



    Board of Directors manages CASIS’s operations with a permanent staff that includes a
    Chief Scientist, Chief Economist, and Director of Development, among others (see
    Figure 3).

                                          Figure 3. CASIS Organization




    Source: CASIS 2012 Annual Report.


    The cooperative agreement tasks CASIS with maximizing use of the ISS for scientific
    research by directly soliciting potential users and fostering a market to attract others.
    CASIS officials told us they attempt to achieve this goal by educating researchers on the
    ISS’s research capabilities and utilizing their professional, academic, and personal
    contacts to match investors and researchers. CASIS stimulates research activity on the
    ISS in three ways: (1) funding proposals directly, (2) matching outside investors with
    researchers, and (3) encouraging self-funded research.

    NASA provides CASIS with $15 million of funding each year, of which at least
    $3 million must be used to fund research grants.12 CASIS may supplement the funding it
    receives from NASA through membership fees and private donations. As of October
    2012, CASIS had raised only $3,200 through membership fees and will begin soliciting
    private donations in the third quarter of fiscal year (FY) 2013. In FY 2012, CASIS spent
    less than planned on its operations and carried over $3 million to FY 2013, creating a
    pool of $6 million from which it can directly fund research in FY 2013.

    For research that it funds, CASIS solicits proposals through “research pathways”
    designed to support advancement of specific scientific fields such as life, material, and


    12
         In contrast, NASA received $225.5 million in fiscal year 2012 to conduct all ISS research. The ISS
         research includes funding for biological and physical research, multi-user systems support, National Lab
         activities, and the ISS nonprofit management organization.



4                                                                                         REPORT NO. IG-13-019
INTRODUCTION



  physical sciences.13 As of March 2013, CASIS had released four solicitations: (1) to
  advance protein crystallization using microgravity, (2) for proposals to conduct material
  testing, (3) for utilization of existing hyper-spectral imaging for commercial product
  development, and (4) to develop strategies for support of stem cell research.14

  For both solicited and unsolicited proposals, CASIS begins their evaluation process with
  a feasibility assessment, including considering whether a similar experiment has flown
  before, safety and risk management issues, and the amount of crew time needed to
  conduct the experiment. If a proposal is deemed feasible, CASIS evaluates its scientific
  and economic potential.

            Scientific Evaluation. To perform the scientific evaluation, CASIS establishes an
             external panel of subject matter experts who review the proposal and assign one
             of five ratings ranging from poor (not selectable) to excellent (top priority for
             selection). The scientific evaluation considers: (1) the significance of the
             proposed research to science, industry, and humanity; (2) the financial and
             demonstrated reliability of the researchers; (3) the innovative aspects of the
             experiment, such as new methods or coverage of multiple disciplines; (4) the
             ability of the experiment to satisfy CASIS’s mission; and (5) if the project will
             benefit from being conducted in space and the researchers have the proper
             ground-based resources to conduct pre-flight operations.

            Economic Evaluation. To perform the economic evaluation, CASIS establishes
             an external panel of subject matter experts who review the proposal using the
             same rating scale, considering both commercial and intangible factors. The
             expert panel evaluates the commercial potential of proposals based on:
             (1) demonstrated management capabilities within and among the research team;
             (2) the likely impact on relevant markets; (3) the likely benefits to the economy
             and people of the United States; (4) the existence of a clearly presented business
             and operating plan; and (5) the likelihood that the relevant market is stable and
             has the potential to accept new products and competition. The intangibles the
             panel considers are the likelihood that: (1) the research will advance discovery
             and provide innovation solutions to broader aspects of U.S. society; (2) potential
             outcomes will exhibit the benefits of conducting research in space; and (3) results
             will improve quality of life and job and wealth creation and will bridge basic and
             applied sciences.

  The CASIS Chief Scientist and Chief Economist work together throughout the evaluation
  process to provide feedback to potential researchers so that they understand what
  13
       The solicitation identifies a maximum amount of potential funding that each proposal could receive if
       selected.
  14
       Protein crystallization is a technique used to determine three-dimensional structures of protein molecules
       in order to examine potential methods of manipulating the behavior of the molecule. Hyper-spectral
       imaging collects and processes information from across the electromagnetic spectrum, which provides
       visual data and analysis across multiple fields, including agriculture, urban planning, and environmental
       studies.



REPORT NO. IG-13-019                                                                                                5
                                                                                                    INTRODUCTION



    improvements are needed for CASIS to accept the experiment. Once a proposal passes
    both the scientific and economic valuation process, CASIS’s Chief Scientist and Chief
    Economist present the experiment to the Executive Director for approval. If approval is
    granted, CASIS facilitates communication between the researcher and a set of 25 partners
    who assist in designing the experiment, integrating the payload, and providing other
    support. For example, CASIS has partnered with NanoRacks, LLC – a company that
    provides interface capabilities for small, standardized payloads in order to connect to ISS
    power and data resources – to provide resources that will allow experiments to be
    exposed directly to the space environment. In addition, CASIS has a partnership with the
    Boeing Corporation to assist with the payload integration aspects of experiments once
    they are onboard the ISS. As of April 2013, CASIS had approved and selected
    38 experiments to be conducted onboard the ISS, including Earth observation and life
    science experiments.

    Transporting Crew and Cargo to the ISS. NASA’s ability to transport crew and cargo
    to the ISS are key factors affecting the amounts and types of research that can be
    conducted there. As NASA and its international partners debated various possible
    designs for a space station in the 1980s and 1990s, they expected that the Space Shuttle
    would be available to support the Station throughout its lifetime.15 In addition, NASA
    planned to build a vehicle capable of evacuating a seven-member crew so that the Station
    could be fully manned. However, funding for this vehicle was removed from the NASA
    budget in 2002, and following the accident that destroyed the Space Shuttle Columbia in
    2003, the Shuttle Program was slated for retirement by 2010.16

    In 2006, NASA began funding commercial companies to develop cargo vehicles to
    support the ISS. Although NASA had originally hoped these vehicles would be available
    in 2009 before the Space Shuttle vehicles retired, the first commercial resupply trip to the
    ISS by Space Exploration Technologies Corporation (SpaceX) did not occur until 2012.
    The other commercial company, Orbital Sciences Corporation (Orbital), is scheduled to
    begin ISS resupply missions in late 2013.

    In planning for the Space Shuttle retirement, NASA expected to experience about a
    2-year period (2010-2012) during which no U.S. vehicle would be available to transport
    NASA astronauts to the ISS and the United States would need to rely on the Russian
    Soyuz to ferry its astronauts to the Station. However, a series of developments has
    lengthened this gap significantly. The development schedule of NASA’s successor to the
    Space Shuttle – the Crew Exploration Vehicle and its first stage vehicle Ares 1 – began to
    slip from its original 2012 availability date. In 2009, the Augustine Commission reported
    that at current funding levels, the Crew Exploration Vehicle would not be able to support
    the ISS until at least 2017. In 2010, NASA cancelled the Constellation Program and
    shifted focus to developing a commercial capability for ISS crew transportation (while at
    15
         NASA’s Space Station Program: Evolution of its Rationale and Expected Uses,” (Congressional
         Research Service, April 20, 2005).
    16
         NASA later added two additional Space Shuttle flights and the final Shuttle flight took place in July
         2011.



6                                                                                          REPORT NO. IG-13-019
INTRODUCTION



  the same time developing a Space Launch System that includes a “heavy lift” rocket and
  Multi-Purpose Crew Vehicle for exploration beyond low Earth orbit).17 Currently, the
  Agency projects the earliest commercial crew vehicles will be operational is 2017.
  Consequently, the Soyuz will continue to be the only means of transporting NASA
  astronauts to the ISS until a commercial crew vehicle becomes available.

  Measures of Utilization. NASA measures utilization of the U.S. laboratory portion of
  the ISS in several ways. The most significant of these measures are: (1) crew time spent
  on research, (2) number of investigations, and (3) occupancy of allocated research space.

  Crew Time. Crew time refers to the number of hours crew members devote to research
  activities as opposed to other tasks required to operate and maintain the Station, sleep,
  exercise, eat, hygiene, and personal time. NASA divides each 24-hour period on the
  Station into 11 hours for work activities and 13 hours for other activities. Of the 11 work
  hours, 2.5 hours are set aside for exercise and 2 hours for planning and work preparation.
  NASA allocates the remaining 6.5 hours as follows:

            Utilization and research (38 percent) – This includes the actual manipulation by a
             crew member of an investigation and the set-up and removal activities associated
             with an experiment.

            Visiting vehicle traffic operations (25 percent) – When a vehicle visits the ISS,
             the crew must devote time to prepare for its arrival and departure. Each of the six
             types of vehicles that visit or are expected to visit the Station presents its own
             unique set of crew activities and configuration set-ups.18 For cargo vehicles, the
             time to unpack, stow, and document the location of incoming supplies and to
             repack the vehicle with trash or other items for return to Earth is included in this
             category. For a crew vehicle, the time for crew exchange and information
             handover is included in this category.

            Maintenance (13 percent) – Includes corrective and preventive activities.

            Medical operations (7 percent) – The crew must maintain exercise and health
             monitoring equipment and perform activities for the Countermeasures,
             Environmental Health, and Health Maintenance systems.19



  17
       The NASA Authorization Act of 2010 provided for a Space Launch System as a key component to travel
       beyond low Earth orbit. In addition, the Authorization Act required the Space Launch System to serve as
       a backup for ISS cargo or crew delivery requirements not met by commercial or partner-supplied
       vehicles.
  18
       These vehicles are the Russian Soyuz and Progress, European Automated Transfer Vehicle, Japanese
       H-II Transfer Vehicle, SpaceX Dragon, and – depending on Orbital’s successful demonstration of cargo
       transportation capabilities in 2013 – Orbital Cygnus.
  19
       Countermeasures are activities to mitigate undesirable physical, physiological, and behavioral health and
       performance effects of space flight upon crew members and crews.


REPORT NO. IG-13-019                                                                                               7
                                                                                 INTRODUCTION



          Training (7 percent) – This category includes emergency egress training,
           depressurization response, Soyuz evacuation, simulated fire drills, emergency
           response, procedures review, and robotics proficiency.

          Extravehicular activity (EVA) operations (5 percent) – Astronaut spacewalk
           activities conducted outside of the ISS, including pre- and post-EVA activities.

          Routine operations (4 percent) – Crew meetings, stowage management, audit of
           supplies and consumables (food and water), and public affairs events.

          Resupply and outfitting (1 percent) – Hardware and software upgrades and
           vehicle configuration changes.

    In addition, unexpected events may reduce research time. For example, in September
    2012, an unexpected EVA operation was required to address an issue with a bolt on an
    electrical power device. The crew spent several days troubleshooting and identifying a
    repair procedure and performing the actual repair, which reduced the time available for
    research activities during that period. More recently, two astronauts performed an
    unplanned space walk in May 2013 to replace a coolant pump assembly that was leaking
    ammonia from the thermal control system.

    Investigations. NASA research aboard the ISS focuses on life and physical sciences,
    human research, exploration research and technology development, astrophysics,
    heliophysics, planetary, and Earth science. Examples of NASA investigations conducted
    aboard the ISS during the last 14 years include:

          Cardiovascular Health Consequences of Long-Duration Space Flight. This
           research is expected to identify countermeasures to prevent astronauts from
           experiencing long-term cardiovascular health problems stemming from their time
           in space.

          Preventing Bone Loss in Space Flight. Bone loss and kidney stones are
           significant problems for astronauts during extended stays in space. Test results
           suggest that astronauts can reduce the risk of both through a combination of
           nutrients such as calcium and vitamin D, an effective exercise program, and
           minimal amounts of medication.

          Alpha Magnetic Spectrometer. A $1.5 billion particle physics experiment ferried
           to the ISS in May 2011 and attached to an exterior truss provides data to advance
           human knowledge about the space radiation environment and fundamental issues
           about the origin and structure of the universe.

          Anomalous Long Term Effects in Astronauts' Central Nervous System. According
           to the ISS Chief Scientist, this investigation assessed the radiation environment
           onboard the ISS, improved understanding of the impact radiation has on the



8                                                                         REPORT NO. IG-13-019
INTRODUCTION



             human central nervous system functions, and studied the flashes from cosmic
             radiation that astronauts have reported since the Apollo flights.

  In addition to NASA-directed research, other Federal agencies, academia, and
  commercial companies have conducted research on the ISS. Examples include:

            Cancer Treatment Delivery. Various members of the oncology community
             participated and used different microencapsulation techniques as an approach to
             cancer treatment.20 Specifically, by using microcapsules containing anti-tumor
             treatment and visualization markers, the treatment can be directed right to the
             tumor, which has several benefits over systemic treatment such as chemotherapy.

            Vaccine Development. Researchers at Arizona State University and Durham
             Veterans Affairs Medical Center have flown experiments investigating
             microgravity effects on virulence and searching for therapeutic agents or vaccines
             against salmonella bacteria.

  Occupancy of Allocated Space. NASA has 24 internal laboratory bays and 15 external
  sites on the ISS that house research investigations.

  Internal laboratory bays. NASA’s 24 bays in the U.S., European, and Japanese Labs
  contain racks, freezers, and other infrastructure that support biological, life science, and
  other types of experiments.

  The U.S. Destiny Lab (Figure 4) contains 13 NASA bays with science racks consisting
  of:
                                                                   Figure 4. NASA Racks in Destiny
            five Expedite the Processing of
             Experiments to the Space Station
             (EXPRESS) racks designed to
             accommodate smaller experiments;
            one fluids integrated rack;
            one combustion integrated rack;
            one window observational research
             facility;
            one minus 80 degree laboratory
             freezer;
            one materials science research rack;
            one microgravity science glove box;                   Source: NASA.
             and
            two additional bays for utilization,
             stowage, and future use.

  20
       Microencapulation is a single step process that forms tiny liquid-fields, biodegradable micro-balloons
       containing various drug solutions that can provide better drug delivery and new medical treatments for
       solid tumors and resistant infections.



REPORT NO. IG-13-019                                                                                            9
                                                                                                    INTRODUCTION



      The European Columbus Lab (Figure 5) contains five NASA bays with science racks
     consisting of:
                                                                     Figure 5. NASA Racks in Columbus
               one EXPRESS rack;
               two human research facility racks;
               one muscle atrophy research
                exercise system; and
               one bay for utilization, stowage, and
                future use.




                                                                    Source: NASA.




     The Japanese Kibo Lab (Figure 6) contains six NASA bays with science racks consisting
     of:
               two EXPRESS racks;                                     Figure 6. NASA Racks in Kibo
               two minus 80 degree laboratory
                freezers; and
               two bays for utilization, stowage,
                and future use.




                                                                       Source: NASA.


     The fluids integrated rack is designed for experiments that investigate fluid physics. For
     example, the Advanced Colloids Experiment-1 is the first in a series of microscopic
     imaging investigations of materials that contain small colloidal particles that remain
     evenly dispersed and distributed within a material.21 The investigation takes advantage
     of the unique environment aboard the ISS in order to separate the effects induced by
     Earth’s gravity and examine flow characteristics and the evolution and ordering effects
     within these colloidal materials. Understanding and improving the way particles react in
     21
          A colloid is a substance microscopically dispersed evenly throughout another substance. A colloidal
          system consists of two separate phases: a dispersed phase (or internal phase) and a continuous phase (or
          dispersion medium) in which the colloid is dispersed. A colloidal system may be solid, liquid, or gas.



10                                                                                          REPORT NO. IG-13-019
INTRODUCTION



  suspension is expected to help improve the shelf life and performance of materials such
  as paints, motor oils, food, and cosmetics. In Figure 7, an astronaut participates in an
  absence of gravity investigation. In this experiment, data is collected using probes
  connected to the astronaut’s body and to a computer in an EXPRESS rack. This
  experiment evaluates differences in the way the brain controls conscious and unconscious
  motions such as breathing, sitting, and standing in environments with and without
  gravity.

   Figure 7. Investigation of the Connection between the Brain, Visualization, and Motion in
                                    the Absence of Gravity




                            Source: NASA.

  The combustion-integrated rack houses experiments that examine combustion. For
  example, the Flame Extinguishment Experiment assessed the effectiveness of fire
  suppressants in microgravity. The goal of this research was to explore fire suppressants
  for the next generation of space vehicles. In Figure 8, an astronaut works on a
  combustion experiment in the Destiny Lab.




REPORT NO. IG-13-019                                                                           11
                                                                                   INTRODUCTION



        Figure 8. Astronaut working with the Combustion Integrated Rack Multi-user Drop
                       Combustion Apparatus in the Destiny Lab of the ISS




              Source: NASA.

     External Sites. NASA has access to 15 sites with power and data connections outside of
     the ISS. Experiments using these external facilities include studies of astronomy; Earth
     observation; and exposure to vacuum, radiation, extreme temperatures, and orbital debris.

     For example, the Space Communications and Navigation Testbed consists of radios that
     provide ground-based mission planners the capability to reconfigure the radios on-orbit,
     which provides flexibility to adapt to new science opportunities and increased data return.
     Additionally, this flexibility allows teams to recover from anomalies in science payloads
     or communication systems and potentially reduce development cost and risk by using the
     same hardware platform for different missions.

     In April 2012, CASIS announced a partnership with NanoRacks, LLC – the first
     commercial entity to create hardware capable of enabling research outside the ISS.
     According to CASIS officials, this agreement is an opportunity to enhance the
     capabilities of the ISS by providing investigators another means to conduct research that
     could lead to Earth-based applications, such as improvements in medicines to treat
     salmonella infection and vaccines against Streptococcus pneumonia. In September 2012,
     CASIS announced a request for proposal for “Materials Research in the Extreme
     Environment of Space” that will utilize the NanoRacks’ External Platform in order to
     understand and make use of the physical and chemical properties influenced by
     microgravity, atomic oxygen, low pressure, and vast temperature variations.

     Finally, NASA research efforts on the ISS are not limited to the allocated internal space
     or external sites. For example, the Alpha Magnetic Spectrometer constructed, tested, and



12                                                                          REPORT NO. IG-13-019
INTRODUCTION



  operated by an international team of 56 institutes from 16 countries and organized under
  the auspices of the U.S. Department of Energy is attached to a nonstandard site outside
  the ISS. The Spectrometer is providing data to advance knowledge of space radiation
  and better understand the origin and structure of the universe. In April 2013, NASA
  announced that the Alpha Magnetic Spectrometer had collected data that may evidence
  dark matter particles colliding with each other, which would be a significant discovery in
  astrophysics research.22

Objectives

  Given NASA’s substantial investment in the ISS, we reviewed NASA’s efforts to
  maximize utilization of the Station for scientific research. Specifically, we examined:

             current level of Station research,
             CASIS’s efforts to facilitate non-NASA research aboard the ISS, and
             transportation challenges that could hinder full research utilization of the ISS.

  See Appendix A for details of the audit’s scope and methodology, our review of internal
  controls, and a list of prior coverage.




  22
       Stars and other visible matter in the Universe make up less than 5 percent of the total mass known to
       exist. The other 95 percent is either dark matter (estimated at 20 percent of the Universe by weight) or
       dark energy. The exact nature of both substances is unknown.



REPORT NO. IG-13-019                                                                                              13
                                                                                                            RESULTS




                                                 MAXIMIZATION OF ISS RESEARCH
                                                OPPORTUNITIES IS DEPENDENT ON
                                               ATTRACTING PRIVATE FUNDING AND
                                             ENSURING RELIABLE CARGO AND CREW
                                                               TRANSPORTATION
                NASA has made progress over the past 14 years in increasing the use of the ISS as a
                research laboratory, but opportunities exist for greater utilization to more fully
                realize the Station’s research potential and maximize the value of the United States’
                investment in building and maintaining the structure. However, further progress in
                maximizing the Station’s research capabilities depends on (1) CASIS’s ability to
                attract private funding to support research and to encourage companies and other
                organizations to conduct self-funded research and (2) the success of NASA’s
                Commercial Cargo and Crew Programs.

NASA Has Increased Research on the ISS but Opportunities Exist
 for Greater Utilization

     Because no one measure provides a complete picture of utilization rates, NASA uses
     three primary data points to assess utilization of ISS research capabilities: average
     weekly crew time, number of investigations, and use of allocated space.23 Since
     completion of ISS assembly in 2011, all three of these measures have increased, but
     opportunities exist to further increase utilization of the Station’s research capabilities.

     Average Weekly Crew Time. By 2009, the ISS was capable of housing six crew
     members and NASA set a goal that the crew should spend an average of 35 hours per
     week on research-related activities.24 Over the next 2 years, the number of hours the
     crew devoted to research ranged from 23 to 29 hours. NASA fell short of its 35-hour
     goal primarily because the crew was dedicating a significant amount of time to activities
     necessary to complete construction of the Station. Once construction was completed in
     July 2011, the hours available for research substantially increased. For example, as
     shown in Table 1, the average amount of time dedicated to research between September
     2011 and April 2012 increased from 24.1 hours to 35.8 hours (48.5 percent) and reached
     37.5 hours by February 2013.




     23
          In addition to average weekly crew time, number of investigations, and use of allocated space, NASA
          also tracks upmass, downmass, and power, thermal, and data usage, but does not consider these measures
          primary indicators of research utilization.
     24
          This refers to both U.S. crew and crew from the international partners. At any one time, there could be
          two to three U.S. crew members onboard the ISS.



14                                                                                         REPORT NO. IG-13-019
RESULTS



                         Table 1. Average Crew Time Used for Scientific Research
           Expeditions                             Dates                          Hours (weekly average)
             21/22                           10/2009 to 3/2010                            28.9
             23/24                           3/2010 to 9/2010                             23.4
             25/26                            9/2010 to 3/2011                            23.7
             27/28                            3/2011 to 9/2011                            24.1
             29/30                            9/2011 to 4/2012                            35.8
             31/32                           4/2012 to 9/2012                             36.3
             33/34                           9/2012 to 4/2013                             37.5a
   a
    Data through February 28, 2013.
   Source: NASA Office of Inspector General (OIG) analysis of NASA data.

  Number of Investigations. NASA has shown an upward trend in the number of active
  investigations conducted over time. For example, between December 1998 and March
  2001, NASA performed 36 investigations aboard the ISS. In comparison, between
  October 2007 and October 2008, that number increased to 62 investigations, and for the
  12 months ending September 2012, to 115 investigations. Overall, between December
  1998 and September 2012, NASA performed 527 total investigations aboard the ISS.

  A number of entities sponsor investigations aboard the ISS and these investigations vary
  considerably in terms of duration, complexity, and research goals. For example, the
  Sleep-Wake Actigraphy and Light Exposure During Spaceflight investigation continued
  for 13 expeditions, while the Forward Osmosis Bag investigation was completed during
  two expeditions in 2011.25 Given these variables, NASA does not set goals to complete a
  set number of investigations over a specific period.

  Use of Allocated Space. As shown in Table 2, the internal space allocated for research
  in the U.S. portion of the ISS was about 70 percent occupied as of April 2012. ISS
  Program officials expect that this rate will increase to 75 percent during FY 2013. NASA
  management told us that their goal is to accommodate all research needs, not to reach full
  occupancy. They also noted that 100 percent occupancy may not be feasible or desirable
  given the power, thermal, and data usage constraints this would place on the ISS.




  25
       Sleep-Wake Actigraphy and Light Exposure During Spaceflight examines how sleep patterns are affected
       by space flight and is designed to aid the treatment of insomnia on Earth. Forward Osmosis Bag is an
       experiment designed to convert dirty water into a safe-to-drink liquid by comparing ground-based results
       to those conducted in space.



REPORT NO. IG-13-019                                                                                              15
                                                                                           RESULTS



                                     Table 2. Internal Occupancy Rates
          Expeditions                      Dates                     Percentage occupied
            21/22                     10/2009 to 3/2010                  Not tracked
            23/24                     3/2010 to 9/2010                   Not tracked
            25/26                     9/2010 to 3/2011                   Not tracked
            27/28                     3/2011 to 9/2011                   Not tracked
            29/30                     9/2011 to 4/2012                      70%
            31/32                     4/2012 to 9/2012                      70%
            33/34                     9/2012 to 4/2013                      70%
            35/36a                    4/2013 to 9/2013                      75%
      a
       Expeditions 35/36 occupancy rate is planned.
      Source: OIG analysis of NASA data.

     As shown in Table 3, NASA’s external sites were about 27 percent occupied as of April
     2012, and ISS program officials expect this rate will increase to 40 percent during
     FY 2013.

                                    Table 3. External Occupancy Rates
          Expeditions                      Dates                     Percentage occupied
            21/22                     10/2009 to 3/2010                  Not tracked
            23/24                     3/2010 to 9/2010                      13%
            25/26                     9/2010 to 3/2011                      13%
            27/28                     3/2011 to 9/2011                      27%
            29/30                     9/2011 to 4/2012                      27%
            31/32                     4/2012 to 9/2012                      33%
            33/34                     9/2012 to 4/2013                      33%
            35/36a                    4/2013 to 9/2013                      40%
     a
      Expeditions 35/36 occupancy rate is planned.
     Source: OIG analysis of NASA data.


CASIS’s Early Performance Metrics Primarily Measured
  Organizational Goals Rather than Station Research Utilization

     The primary way NASA expects to increase utilization of ISS research capabilities is by
     working with CASIS to solicit non-NASA research. Currently, NASA intends to provide
     CASIS with $15 million in funding each year and is counting on the organization to raise
     additional funding through membership fees and donations and to work to encourage
     others to conduct self-funded research on the Station. However, CASIS suffered a series
     of organizational issues early on that may have affected its initial fundraising efforts.
     Moreover, although CASIS met most of its early performance metrics, these metrics were
     focused primarily on achieving organizational milestones rather than measuring how
     successful CASIS has been in encouraging research on the Station.




16                                                                          REPORT NO. IG-13-019
RESULTS



  Fostering a Market for ISS Research Remains a Significant Challenge for CASIS.
  Attracting private funding is essential to supplement the relatively limited funding NASA
  provides to CASIS. Although NASA received $225.5 million in FY 2012 to conduct
  research aboard the ISS, only $15 million went to CASIS. As shown in Table 4, CASIS
  must allocate at least $3 million of its annual allotment to fund research experiments.
  CASIS is planning to supplement this money with private funding raised through
  membership fees and direct donations. In addition, the organization plans to match
  outside funding sources with researchers and encourage self-funded research by
  corporations and other institutions.

                               Table 4. CASIS Funding Sources

    Source of      Direct or      Significance of Funding
                                                                             Example
    Funding        Indirect                Source

                                Provides funding for             Of the $15 million awarded
                                operations, human                annually, approximately $3
     NASA            Direct     resources, marketing, and        million is set aside for funding
                                solicited research               research experiments.
                                experiments.

                                Membership fees provide          CASIS has three membership
                                CASIS with additional funds      categories –individuals,
   Membership
                     Direct     to allocate towards solicited    educational institutions, and
     Fees
                                and unsolicited research         corporations – with annual fees
                                experiments.                     ranging from $35 to $50,000.

                                Funds from donors provide        CASIS plans to perform
                                CASIS with additional            outreach activities as a means to
     Donors          Direct     resources to allocate toward     solicit funds from foundations,
                                research experiments.            individuals, and other funding
                                                                 organizations.

                                Match private investors with     CASIS plans to facilitate
                                scientists in need of research   communication and funding
                                funds and encourage self-        between investors and
                                funded research by               researchers by leveraging the
                                companies and other              professional networks of its
     Private
                    Indirect    organizations.                   Board of Directors and
    Investors
                                                                 Executive Director as a means
                                                                 to connect interested parties as
                                                                 well as through outreach
                                                                 activities that highlight the
                                                                 potential of the ISS.
  Source: OIG analysis of CASIS documentation.




REPORT NO. IG-13-019                                                                                 17
                                                                                                               RESULTS



     According to an April 2011 NASA report, several factors make attracting private funding
     and research to the ISS a challenge.26 First, NASA historically has received little interest
     from private entities for ISS research unless there was a substantial infusion of
     government funds. Of the experiments conducted aboard the U.S. segment of the ISS
     between December 1998 and September 2010, 81 percent were funded by NASA,
     10 percent by the Department of Defense, and only 9 percent by commercial entities.27
     Moreover, the commercial entities paid only for the cost of the investigators while NASA
     covered the cost of payload integration, transportation, and ISS resources. According to
     NASA, it is unlikely that any of these commercial experiments would have taken place in
     the absence of the Agency’s in-kind contributions and assistance.

     A second challenge is that in some cases ground-based research provides similar results
     at significantly less expense than conducting research on the ISS.28 The cost of testing,
     evaluating, and documenting payloads in order to ensure flight and mission safety on the
     ISS can exceed $250,000. Additional limitations to conducting research aboard the ISS
     include the frequency of tests and time dedicated to the experiment, the number of
     samples that can be conducted concurrently and repeatedly, and the availability of timely
     sample returns. On the other hand, unlike ground-based research options, the ISS offers
     the ability to conduct research in a sustained microgravity environment. CASIS’s
     challenge is to demonstrate that this advantage is worth the extra cost.

     Finally, a vast majority of the research activities conducted aboard the ISS have related to
     basic research as opposed to applied research.29 While discoveries made as a result of
     basic research may eventually contribute to “real world” applications, investors and
     for-profit companies may be reluctant to allocate funds to basic research, especially when
     the likelihood of profitable results is unknown. If CASIS is unable to demonstrate the
     benefits of basic research or how those results can be transitioned to applied research –
     and therefore increase the potential to generate a return on investment to commercial
     partners – it will be difficult for the organization to attract significant private funding.




     26
          “Commercial Market Assessment for Crew and Cargo Systems Pursuant to Section 403 of the NASA
          Authorization Act of 2010,” (NASA, April 27, 2011).
     27
          This data represents a period of time when the major focus of ISS activities was assembly. Therefore, it
          may not be predictive of private utilization statistics in the future.
     28
          For example, researchers conducted experiments on protein crystallization in space for several years
          because microgravity afforded researchers the optimal environment in which to crystalize proteins.
          However, methods to conduct such research have improved to the point that some protein crystallizations
          can be performed in ground-based labs.
     29
          Basic research increases the understanding of fundamental science, such as physics and biology. Applied
          research facilitates the practical application of science in a product, such as more efficient materials and
          improved performance.



18                                                                                           REPORT NO. IG-13-019
RESULTS



  In our discussions with CASIS officials, they acknowledged these challenges and
  emphasized their organization’s important role in educating potential users who may
  have not considered conducting research in a microgravity environment. The officials
  explained that many industry leaders were unaware of the capabilities, potential, and past
  successes derived from conducting research aboard the ISS.

  Despite Organizational Disruptions CASIS Has Met Most Early Performance
  Metrics. From its creation, CASIS has had a difficult time filling key senior
  management positions. For example, CASIS signed the cooperative agreement with
  NASA and appointed its first Executive Director in August 2011. Seven months later the
  Executive Director resigned and as of May 2013, CASIS had no permanent Executive
  Director. Additionally, only seven of the 15-member Board of Directors have been
  selected.30 These seven Board members will select a permanent Executive Director and
  the remaining eight Board members. A permanent Executive Director and a full
  complement of Directors are critical for establishing CASIS’s credibility as it begins
  fundraising activities in the third quarter of FY 2013. CASIS officials explained that
  Directors are expected to draw on their experience and call on their network of contacts
  in business, science, and academia to help attract non-NASA research to the ISS.

  Despite the delay in filling key senior management positions, CASIS met its early
  performance metrics. According to NASA program officials, CASIS satisfied each of
  these performance metrics in FY 2012:

            Establish a payload prioritization process and demonstrate its functionality for
             Expeditions 37 and 38, scheduled to launch in September 2013. CASIS has
             developed this process and selected 17 experiments for Expeditions 37 and 38. In
             addition, CASIS has selected 21 experiments to be performed on expeditions prior
             to Expeditions 37 and 38.
            Obtain full funding for three flight research projects from outside capital sources.
             CASIS reported obtaining at least three self-funded research projects: a
             pharmaceutical company funding protein crystallization research, a private
             institute funding earth observation research, and a sport equipment company
             funding material science research.
            Demonstrate functioning of the membership model by enrolling 50 paid members.
             In FY 2012, CASIS enrolled 52 paid members and raised a total of $3,200 in
             membership fees. CASIS’s membership model is organized into three categories:
             individuals, educational and nonprofits, and corporations. Each category has
             multiple levels of membership that vary in both cost and benefits provided. For
             example, an individual can choose to register as an “E-Member” at no cost and
             receive access to CASIS online forums, e-mail updates, and an electronic

  30
       The individuals serving on the Board have a wide range of experiences and appear well qualified. One
       board member received the National Medal of Science for establishing an organization that researches
       the molecular basis of disease. Other members include current and former university presidents, human
       nutrition experts, and biomedical engineers.



REPORT NO. IG-13-019                                                                                           19
                                                                                           RESULTS



            membership card or as a “Commander” at the cost of $250 for additional benefits,
            including recognition in CASIS’s Annual Report and special promotions and
            discounts from CASIS partners. Similarly, a corporate member can join at the
            “General” level for $5,000 and receive recognition in the Annual Report, a
            quarter-page advertisement in the program for CASIS’s annual conference, and
            specific promotions and discounts from CASIS partners, or join at the “CASIS
            Founder’s Circle” level for $50,000.
           Develop transparent economic evaluation framework, tools, and processes and
            establish functionality in test cases. CASIS created the evaluation framework
            described earlier in this report and applied it to a number of test cases and to
            selected projects slated to be launched in September 2013. CASIS designed the
            economic evaluation framework to attract users to the ISS who have not
            considered conducting microgravity research in the past. For example, CASIS
            may use the economic evaluation to demonstrate to a pharmaceutical company the
            benefits of conducting protein crystallization research in microgravity as a means
            to improve the functionality of their product thus increasing their profit potential.
           Establish a focused marketing and outreach campaign. CASIS has been the
            subject of a number of print and online media reports, including a portion of a
            60-minute program on Clear Channel Radio dedicated to science and space. In
            addition, CASIS has launched a website and is active on Facebook and Twitter.
            CASIS has also designed an awareness campaign called “Space Is In It” designed
            to entice American companies and manufacturers to consider doing product
            development and testing aboard the ISS.

     FY 2013 Performance Metrics Are Not Clearly Defined. CASIS’s general goals for
     FY 2013 are to award research grants from funds raised through donations and approve
     more self-funded investigations for the Station. CASIS’s FY 2013 Program Plan states
     that it will work to better position individuals, educators, and corporations to conduct
     research on the ISS by leveraging its own growing network of experienced researchers,
     companies, and other potential users.

     While these goals are positive first steps toward developing a market for non-NASA
     research aboard the ISS, CASIS and NASA have yet to create specific, quantifiable
     metrics to measure CASIS’s ability to meet these goals. NASA officials told us that
     establishing specific metrics were postponed until the fourth quarter of FY 2013 because
     CASIS’s new Board of Directors wanted additional time to familiarize themselves with
     the organization before agreeing to such metrics. As a result, less than 3 months before
     NASA is scheduled to assess CASIS’s performance for FY 2013 the metrics for each of
     the organization’s goals is listed as “to be determined.” Until NASA and CASIS
     establish precise metrics that reflect the degree to which CASIS is increasing non-NASA
     research on the ISS, it will be difficult to determine if CASIS is meeting the objectives of
     its agreement with NASA.




20                                                                           REPORT NO. IG-13-019
RESULTS



Maximizing Use of the ISS for Research is Dependent on Evolving
 Transportation Capabilities

  Dependable cargo and crew transportation is essential to maximizing the research
  capabilities of the ISS. At present, the Russian Soyuz is the only means of transporting
  crew to and from the ISS. Cargo providers currently include the Japanese, European, and
  Russian space agencies, and two private U.S. companies – SpaceX and Orbital. As of
  May 2013, SpaceX has flown two resupply missions to the ISS and the first Orbital
  resupply mission is scheduled for November 2013.

  Cargo Transportation. With the retirement of the Space Shuttle in July 2011, NASA
  lost its in-house capability to transport cargo to and from the ISS. As shown in Figure 9,
  four cargo vehicles currently support the ISS – SpaceX’s Dragon, the Russian Progress,
  the European Automated Transfer Vehicle, and the Japanese H-II Transfer Vehicle. A
  fifth vehicle, Orbital’s Cygnus, is expected to begin cargo flights in late 2013. All but the
  Progress carry NASA payloads to the Station, but only the Dragon can return
  experiments and other cargo to Earth. The other vehicles burn up during atmospheric
  reentry and therefore are suitable only for trash disposal. The Dragon’s return capability
  is critical to maximizing the Station’s research capabilities as many experiments require
  samples be brought back to Earth for analysis and examination.

                      Figure 9. ISS Cargo Mission Schedule as of May 2013




  Source: OIG analysis of NASA data.




REPORT NO. IG-13-019                                                                              21
                                                                                           RESULTS



     Dragon can transport approximately 3,310 kilograms (kg) of cargo to the ISS and return
     approximately 2,500 kg of cargo to Earth. Cygnus can transport approximately 2,000 kg
     of cargo to the ISS. The Russian Progress visits the ISS roughly four times a year and
     carries up to 3,200 kg of supplies and experiments. The European Automated Transfer
     Vehicle launches approximately once per year with 7,667 kg, while the Japanese H-II
     Transfer Vehicle supplies the ISS once per year with 6,000 kg of materials. This
     information is presented in Table 5.

                                   Table 5. ISS Cargo Resupply Vehicles
                               Company                          Missions
                                                Vehicle                    Upmassa     Downmass
                               or Agency                        per year


                                SpaceX           Dragon             3      3,310 kg    2,500 kg




                                                                            2,000 to
                                 Orbital         Cygnus             2b
                                                                           2,700 kgc




                              Roscosmos         Progress            4      3,200 kg



                               European        Automated
                                Space           Transfer            1      7,667 kg
                                Agency          Vehicle

                                Japan
                                                  H-II
                              Aerospace
                                                Transfer            1      6,000 kg
                              Exploration
                                                Vehicle
                               Agency
      a
        Upmass is sometimes limited by volume within the vehicle.
      b
        Missions to begin late in calendar year 2013.
      c
        Improved capability planned for 2014.
      Source: OIG analysis of NASA data.


     Crew Transportation. The Russian Soyuz carried the first ISS crew in November 2000.
     From 2000 to 2006, NASA acquired seats for its astronauts on the Soyuz by bartering –
     for example, trading a seat or cargo space on a Space Shuttle mission for a seat on a
     Soyuz. The Space Shuttle also transported crew members to and from the ISS until 2009.
     After NASA retired the Space Shuttles in 2011, the Soyuz became the only vehicle
     capable of transporting crew to the ISS. Between 2006 and 2008, NASA purchased one


22                                                                             REPORT NO. IG-13-019
RESULTS



  seat per year. Beginning in 2009, NASA started purchasing six seats per year. The price
  per seat has increased over the years from $22 million in 2006, to $25 million in 2010, to
  $28 million in the first half of 2011. During the second half of 2011, the price per seat
  jumped to $43 million.31 The price has continued to increase. For example, the price of
  purchased seats for launches in 2014 and 2015 are $55.6 million and $60 million,
  respectively. In April 2013, NASA signed another deal with Russia valued at
  $424 million for six additional seats to carry NASA astronauts to the Station during 2016
  through June 2017, and the price per seat has increased to $71 million.

  NASA began the Commercial Crew Program in 2010 in part to end its reliance on the
  Soyuz for crew transportation to the ISS. The goal of the Commercial Crew Program is
  to facilitate the design and development of safe, reliable, and cost effective crew
  transportation to the ISS and low Earth orbit. In August 2012, NASA awarded the third
  round of development agreements for approximately $1.1 billion to three commercial
  partners.32 Following the design and development stages, NASA hopes to select at least
  two companies to conduct certification tasks to ensure the vehicles meet NASA safety
  standards. Once a company is certified, NASA will award at least one company a service
  contract to transport astronauts to and from the ISS.

  NASA expects at least one commercial partner to achieve certification and provide crew
  transportation services to the ISS in 2017. However, NASA has not received the full
  amount of funds it requested for the Program since 2011, and the Program continues to
  face an uncertain funding stream. For example, NASA requested $850 million for
  FY 2012 and $830 million for FY 2013 for its Commercial Crew Program, but received
  only $406 million and $489 million, respectively. If this trend continues in the future,
  NASA likely will not meet its goal of having at least one vehicle transporting crew to the
  ISS in 2017. In that case, NASA would have to purchase additional seats on Soyuz
  vehicles. Soyuz manufacturing and assembly requirements require NASA to procure
  Soyuz seats at least three years in advance to avoid a gap in ISS crew transportation.

  Crew Transportation and Research Time. The lack of crew transportation vehicles
  other than the Soyuz limits the amount of research that can be conducted on the ISS.
  Although the Station is capable of supporting a seven-member crew, each Soyuz has a
  three-person capacity and only two Soyuz vehicles can be docked at the ISS at one time.
  This means that only six crew members can safely be aboard the ISS at a time to allow
  for evacuation in case of an emergency.


  31
       The largest increase occurred for launches planned for the latter portion of 2011, when retirement of the
       Space Shuttle and the lack of a U.S. domestic transportation capability increased NASA’s previous
       demand for Soyuz seats. According to the Space Station External Integration Office, meeting this
       increased demand required upgrades to and modernization of Russia’s manufacturing infrastructure,
       which resulted in a 57 percent increase in the cost per seat – from $28 million for launches in the first
       half of 2011 to $43 million for launches in the latter half of 2011.
  32
       SpaceX received $440 million for its Dragon capsule; the Boeing Corporation received $460 million for
       its CST-100 capsule; and Sierra Nevada Corporation received $212.5 million for its Dream Chaser
       capsule.



REPORT NO. IG-13-019                                                                                               23
                                                                                            RESULTS



     The commercial vehicles currently under development will be capable of transporting a
     minimum of four astronauts. Accordingly, once one of these vehicles is operational the
     ISS can be staffed with its full complement of seven. According to the ISS Program
     Office, a seventh astronaut could increase crew time devoted to research by more than
     33 hours per week – a 94 percent increase over current rates.

Conclusion

     Given its $60 billion construction price tag and almost $3 billion in annual operating
     costs, it is essential that NASA make a concerted effort to maximize the research
     capabilities of the ISS. The success of this effort largely hinges on two factors: the
     ability of CASIS to attract sufficient interest and funding from private users and
     investors, and the availability of reliable transportation to and from the Station for crew
     and cargo.

     CASIS’s task is particularly challenging given the historic lack of interest from private
     entities in conducting research aboard the ISS in the absence of government funding.
     While CASIS’s general goals for FY 2013 to award research grants from funds raised
     through donations and approve more self-funded investigations are positive first steps
     toward enhancing a market for non-NASA research aboard the ISS, neither CASIS nor
     NASA have developed specific, quantifiable metrics to measure CASIS’s ability to meet
     these goals. Without more precise metrics that reflect the degree to which non-NASA
     research is conducted on the ISS, it will be difficult to determine if CASIS is achieving
     its goal of improving the return on investment in the ISS by increasing use of the
     National Lab.

     In addition to the challenges facing CASIS, the effort to maximize research capabilities
     aboard the ISS depends significantly on the success of NASA’s Commercial Cargo and
     Crew Programs. The ability to return experiments to Earth and to fully staff the ISS with
     seven crew members both depend on the success of these efforts.

Recommendation, Management’s Response, and Evaluation of
  Management’s Response

     We recommended that the NASA Associate Administrator for the Human Exploration
     and Operations Mission Directorate work with CASIS to develop precise annual
     performance metrics that measure CASIS’s success at fostering private research on the
     ISS.

        Management’s Response. The Associate Administrator concurred with our
        recommendation, stating that CASIS plans to provide suggested metrics to NASA in
        the fourth quarter of FY 2013 and that NASA will evaluate the proposed metrics and
        work with CASIS to incorporate more precise metrics into CASIS’s execution plans.




24                                                                            REPORT NO. IG-13-019
RESULTS



      Evaluation of Management’s Response. Management’s proposed actions are
      responsive; therefore, the recommendation is resolved. We will close the
      recommendation upon verification that NASA is using performance metrics that
      measure CASIS’s success at fostering private research on the ISS.

      In his response, the Associate Administrator also noted that CASIS is just one avenue
      to maximize ISS utilization, citing other ways in which NASA has expanded
      NASA-related research on the Station. Although we acknowledge these efforts, our
      report focused on increasing utilization of the National Lab by entities other than
      NASA, and CASIS is the primary mechanism through which NASA will pursue this
      goal. Accordingly, we continue to believe that CASIS’s success is critical to
      maximizing the research capabilities of the ISS.




REPORT NO. IG-13-019                                                                          25
                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from November 2011 through May 2013 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  During the audit’s survey phase, we focused on NASA’s implementation of requirements
  stipulated by the NASA Authorization Acts of 2005, 2008, and 2010 that would enhance
  ISS utilization.

  We assessed the steps NASA had taken to ensure it was maximizing the productivity and
  innovative use of the ISS National Lab with respect to scientific and technological
  research and development, advancement of space exploration, and international
  collaboration. We also analyzed data (crew research time, upmass, and downmass)
  reported in a recent Composite Operations and Utilization Plan approved by the Systems
  Operations Panel and User Operations Panel on February 24, 2012. We reviewed
  NASA’s cooperative agreement with CASIS and CASIS’s first Annual Program Plan;
  reviewed NASA’s semiannual and monthly utilization reports; and held separate
  interviews with the NASA Cooperative Agreement Technical Officer, the first CASIS
  Executive Director before she resigned, the NASA Manager of the ISS National Lab, the
  NASA Manager of the ISS Payloads, and the ISS Program Scientist.

  To determine whether management and utilization of the ISS National Lab provided
  opportunities for collaboration with other research programs and cooperation with
  commercial suppliers, users, and developers, we identified and reviewed Space Act
  Agreements and Memorandum of Understandings that NASA had entered into with
  nonexploration users of the National Lab and discussed with CASIS officials how they
  planned to carry out the requirements of the cooperative agreement.

  To determine whether NASA had ensured CASIS will consider the recommendations of
  the National Academies Decadal Survey on Biological and Physical Sciences in Space in
  establishing ISS National Lab research priorities, we reviewed the National Academies
  Decadal Survey, the NASA Authorization Act of 2010, and the cooperative agreement,
  and interviewed the NASA Manager of the ISS National Lab, the ISS Program Scientist,
  NASA Manager of ISS Payloads, and the CASIS Executive Director and Director of
  Administration. For the audit phase, we identified and reviewed challenges to full
  utilization of the ISS National Lab and NASA’s and CASIS’s efforts to effectively
  manage these challenges.


REPORT NO. IG-13-019                                                                          27
                                                                                       APPENDIX A



     We interviewed officials with five private companies, universities, and Federal agencies
     that had ongoing or past scientific experiments conducted on the ISS. We asked the
     organizations what facilitated the success of their research and what were the
     impediments to success; if they were impacted by the availability of resources like
     upmass, downmass, and crew time; and whether they felt CASIS going forward would be
     successful in retaining them and motivating other organizations to use the ISS. Also, we
     interviewed the former NASA Director of Space Station Freedom and the President of
     Space and Technology Policy Group, LLC, to obtain their views on the prospect for full
     utilization of the ISS.

     We met with key staff members in NASA Headquarters Human Exploration and
     Operations Mission Directorate, the Science Mission Directorate, the Office of the Chief
     Technologist, and the Office of the Chief Scientist to discuss and increase our knowledge
     of the NASA research and the process and metrics used to maximize the NASA research
     conducted on the ISS.

     We attended the first annual ISS Research and Development Conference co-sponsored by
     the American Astronomical Society, NASA, and CASIS to experience first-hand the
     dissemination of information and outreach to nonexploration customers interested in
     conducting scientific research on the ISS National Lab.

     We met with the CASIS executive team and discussed CASIS’s significant activities and
     processes (completed, ongoing, and planned) that promote maximum utilization of the
     ISS National Lab by nonexploration users. In addition, we asked CASIS to describe their
     challenges and mitigation plans.

     Use of Computer-Processed Data. We did not use computer-processed data to perform
     this audit, but did use data provided by the Johnson Space Center Research Integration
     Office (formerly the ISS Payloads Office) for historical information on ISS assembly and
     utilization. We did not verify that data to source documents, but considered it reliable for
     the purposes of the review.

Review of Internal Controls

     We performed a preliminary assessment of the internal controls associated with our audit,
     including identifying controls that are in place to monitor and increase ISS utilization.
     Throughout the audit we reviewed controls associated with the audit objectives and
     identified that NASA monitors and reports ISS utilization data in its monthly Manager’s
     Level Performance Indicators for utilization of ISS research facilities and achieving
     requirements and commitments for research crew time and research resupply upmass.




28                                                                           REPORT NO. IG-13-019
APPENDIX A



  Further, NASA monitors and reports ISS utilization data in its quarterly Key Program
  Performance Indicators for meeting planned expectations of ISS utilization operations.
  Based on the results of our review, we considered the internal controls over the utilization of
  the ISS for research to be adequate.

Prior Coverage

  During the last 5 years, the NASA OIG and the Government Accountability Office have
  issued six reports of particular relevance to the subject of this report. Unrestricted reports
  can be accessed over the Internet at http://oig.nasa.gov/audits/reports/FY13 and
  http://www.gao.gov.

  NASA Office of Inspector General

  “Commercial Cargo: NASA’s Management of Commercial Orbital Transportation
  Services and ISS Commercial Resupply Contracts” (IG-13-016, June 13, 2013)

  “NASA's Challenges Certifying and Acquiring Commercial Crew Transportation
  Services” (IG-11-022, June 30, 2011)

  Government Accountability Office

  “NASA: Significant Challenges Remain for Access, Use, and Sustainment of the
  International Space Station” (GAO-12-587T, March 28, 2012)

  “National Aeronautics and Space Administration: Acquisition Approach for Commercial
  Crew Transportation Includes Good Practices, but Faces Significant Challenges”
  (GAO-12-282, December 15, 2011)

  “International Space Station: Significant Challenges May Limit Onboard Research”
  (GAO 10-9, November 2009)

  “NASA: Commercial Partners Are Making Progress, but Face Aggressive Schedules to
  Demonstrate Critical Space Station Cargo Transport Capabilities” (GAO-09-618,
  June 16, 2009)




REPORT NO. IG-13-019                                                                                29
                      APPENDIX B




     MANAGEMENT COMMENTS




30           REPORT NO. IG-13-019
APPENDIX B




REPORT NO. IG-13-019   31
              APPENDIX B




32   REPORT NO. IG-13-019
APPENDIX C




                                                        REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  Associate Administrator, Human Exploration and Operations Mission Directorate
  Director of the International Space Station Division of the Human Exploration and
    Operations Mission Directorate
  NASA Advisory Council’s Audit, Finance, and Analysis Committee
  Cooperative Agreement Technical Officer (CASIS), NASA Headquarters
  Director, Johnson Space Center
  Manager, International Space Station Program
  Manager, Payloads Office, Johnson Space Center
  Manager, National Lab, Johnson Space Center
  Director, Kennedy Space Center
  Director, Marshall Space Flight Center

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Operations
  House Committee on Science, Space, and Technology
     Subcommittee on Oversight
     Subcommittee on Space



REPORT NO. IG-13-019                                                                  33
Major Contributors to the Report:
   Ridge Bowman, Director, Space Operations Directorate
   Kenneth Sidney, Project Manager
   Dennis Clay, Lead Auditor
   Ellis Lee, Auditor
   Lawrence Neu, Aerospace Technologist
   Michael Palinkas, Management Analyst




REPORT NO. IG-13-019                                      35
                                                                                           JULY 8, 2013
                                                                        REPORT No. IG-13-019




                                                                                  OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY13/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
